      Department of Homeland Security




            DHS Information Technology 

             Management Has Improved, 

               But Challenges Remain 





OIG-12-82                                  May 2012

                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                        May 4, 2012


                                          Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the Department.

This report is to assess progress made in the Department’s Office of the Chief
Information Officer in implementing an effective information technology management
program. It is based on interviews with employees and officials of relevant agencies and
institutions, direct observations, and a review of applicable documents.

The recommendation herein has been developed to the best knowledge available to our
office, and has been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.


                                      Frank Deffer
                                      Assistant Inspector General
                                      Information Technology Audits
Table of Contents/Abbreviations

Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................7


       Progress Made To Establish CIO Oversight and Authority .........................................7


       Progress Made Toward IT Integration .......................................................................13


       Progress Made To Advance IT Management Functions, But Further Improvements 

       Are Needed................................................................................................................19


       Recommendation........................................................................................................31


       Management Comments and OIG Analysis ...............................................................31




Appendices
     Appendix A:           Purpose, Scope, and Methodology.......................................................32

     Appendix B:           Management Comments to the Draft Report .......................................34

     Appendix C:           Major Contributors to this Report........................................................35

     Appendix D:           Report Distribution...............................................................................36



Abbreviations
     CBP                         U.S. Customs and Border Protection

     CFO                         Chief Financial Officer

     CIO                         Chief Information Officer

     CPIC                        Capital Planning and Investment Control

     DHS                         Department of Homeland Security

     DOE                         Department of Energy

     DOJ                         Department of Justice

     EBMO                        Enterprise Business Management Office 

     FEMA                        Federal Emergency Management Agency

     FY                          fiscal year

     GAO                         Government Accountability Office

     HHS                         Department of Health and Human Services

     ICE                         Immigration and Customs Enforcement

     IT                          information technology

     MD                          management directive

OCIO    Office of the Chief Information Officer
OIG     Office of the Inspector General
OMB     Office of Management and Budget
RAP     Resource Allocation Plan
TSA     Transportation Security Administration
USDA    United States Department of Agriculture
USCG    United States Coast Guard
USCIS   United States Citizenship and Immigration Services
USSS    United States Secret Service
VA      Department of Veterans Affairs
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                   Creating a unified information technology infrastructure for
                   effective integration and agency-wide management of information
                   technology assets and programs has been a challenge for the
                   Department of Homeland Security (DHS) Chief Information
                   Officer. In 2004 and 2008, we reported that the Chief Information
                   Officer did not have sufficient budget authority or staffing to
                   effectively manage information technology.

                   We conducted a follow-up audit to determine the Department’s
                   progress in implementing an effective information technology
                   management program. The objective of this audit was to assess
                   progress made in establishing Chief Information Officer oversight
                   and authority, achieving integration, improving information
                   technology management functions, and addressing our prior
                   recommendations. Appendix A describes the audit’s scope and
                   methodology.

                   Since 2008, the Chief Information Officer has increased oversight
                   and authority of information technology by reviewing DHS
                   component programs and acquisitions. This has enabled the Chief
                   Information Officer to make strategic recommendations to reduce
                   costs and duplication. The Department has achieved some
                   infrastructure integration goals through data center and network
                   consolidation. Ultimately, the Department expects cost savings
                   through improved information sharing and disaster recovery
                   capabilities. Also, the Department matured key information
                   technology management functions, such as portfolio management.
                   However, challenges remain to recruit people with the necessary
                   skills to perform certain management functions. Budget review
                   improvements are needed to enable the Chief Information Officer
                   to identify and resolve issues before component investments are
                   finalized.

                   We are recommending that that the Deputy Under Secretary for
                   Management assign the Chief Information Officer a key role in the
                   Department’s information technology budget planning process.


        DHS Information Technology Management Has Improved, But Challenges Remain


                                         Page 1

Background
                 The Homeland Security Act of 2002, as amended, established the
                 position of the DHS Chief Information Officer (CIO) to govern
                 information technology (IT) across 22 component agencies to
                 ensure that technologies and services are in place to meet DHS’
                 mission needs. The primary mission of the DHS CIO is to lead,
                 govern, integrate, and manage IT functions throughout the
                 Department.

                 The component agencies that make up DHS rely heavily on IT to
                 perform a wide range of mission operations, including
                 counterterrorism, border security, and emergency response, among
                 others. To support its mission operations, DHS had an IT budget
                 of approximately $6 billion for fiscal year (FY) 2011. This
                 represents nearly 14 percent of the DHS overall budget of $43.6
                 billion. Given the size and significance of this investment in IT,
                 effective management of IT programs and expenditures is critical.
                 Figure 1 includes IT budgets for the seven operational components
                 of DHS: U.S. Customs and Border Protection (CBP),
                 Transportation Security Administration (TSA), United States
                 Citizenship and Immigration Services (USCIS), Immigration and
                 Customs Enforcement (ICE), United States Coast Guard (USCG),
                 Federal Emergency Management Agency (FEMA), and United
                 States Secret Service (USSS).

                                      Total FY 2011 DHS IT Budget $6 Billion
                    $1,700




                             $1,165

                                        $769      $743
                                                           $647
                                                                     $550
                                                                               $361

                                                                                      $102


                    CBP      Other      TSA       USCIS     ICE     USCG       FEMA   USSS


                 Figure 1: Component IT Budgets FY 2011 (in millions)

                 The DHS CIO reports to the Under Secretary for Management and
                 is supported by the Office of the CIO (OCIO), which is composed
                 of the CIO, a Deputy CIO, a Chief of Staff, and approximately 344
                 Federal staff. The OCIO administers the Department’s IT

      DHS Information Technology Management Has Improved, But Challenges Remain

                                         Page 2
                              infrastructure, applications, services, and management functions.
                              The mission of the OCIO is to ensure that more than 220,600 DHS
                              employees remain connected to the Department’s IT infrastructure
                              environment and to ensure operational excellence. Figure 2 shows
                              the organization chart of the six OCIO offices.

                                                                     UNDER SECRETARY FOR
                                                                        MANAGEMENT

                                                                        DEPUTY UNDER
                                                                         SECRETARY


                                                                        Chief Information
                                                                             Officer
                                                                               (CIO)

                                                                                                   Chief of Staff

                                                                             Deputy
                                                                        Chief Information
                                                                             Officer




                                 Enterprise                                                                                     Enterprise
                                              Information        Information           Office of        Office of Accessible
                                 Business                                                                                        System
                                                Security         Technology             Applied            Systems and
                                Management                                                                                     Development
                                                 Office         Services Office       Technology            Technology
                                   Office                                                                                         Office


                              Figure 2: DHS OCIO Organization Chart

                              The Enterprise Business Management Office (EBMO) oversees IT
                              budget functions and ensures that the Department’s IT investments
                              align with its missions and objectives. The Information Security
                              Office provides oversight to ensure a secure and trusted computing
                              environment that enables the Department to effectively share
                              information in support of mission needs and regulatory
                              requirements. The Information Technology Services Office is
                              responsible for managing the IT infrastructure, including network,
                              email, Internet, telecommunications infrastructure, and end-user
                              services, in accordance with the Department’s mission and goals.
                              The Office of Applied Technology has primary responsibility for
                              the Department’s enterprise architecture, data, technology, and
                              governance services. The Office of Accessible Systems and
                              Technology leads Department-wide implementation of Section 508
                              of the Rehabilitation Act of 1973, 1 as amended, providing technical
                              support and training to ensure that employees and customers with
                              disabilities have equal access to information and data. Finally, the
                              Enterprise System Development Office provides enterprise IT
                              services, such as Microsoft SharePoint, for DHS customers.




1
    29 U.S.C. Section 794d.

               DHS Information Technology Management Has Improved, But Challenges Remain

                                                            Page 3
           The DHS CIO is responsible for all IT programs in the Department
           and provides leadership to support the Department’s vision for
           “One Network, One Infrastructure, One DHS.” In 2005, the
           Department began to modernize and integrate critical IT functions
           and systems to establish “one infrastructure” for improved
           information sharing across components. To achieve this goal, the
           Infrastructure Transformation Program was established,
           representing the Department’s full-scale move toward a DHS-wide
           consolidated IT infrastructure. This program comprises a group of
           interrelated initiatives, listed below, designed to generate a more
           robust and cost-effective infrastructure for the Department.

           Data Center Consolidation

           This project’s strategic vision is to reduce the number of existing
           component data centers to two secure, geographically separate
           enterprise data centers to minimize infrastructure while enhancing
           the Department’s disaster recovery posture. These two enterprise
           data centers became operational in 2008.

           OneNet

           In 2005, the Department began to consolidate and transform its
           individual component networks into a single wide area network,
           known as OneNet. The Department’s goal for OneNet is to
           facilitate the ability of all DHS components to share data. The
           completed OneNet will provide a centralized Network Operations
           Center and Security Operations Center to achieve cost effectiveness
           and improve security by reducing the number of trusted Internet
           connections. OneNet received its original authority to operate in
           May 2005.

           Email and Collaboration Services

           The OCIO offers email services as part of an effort to standardize
           email platforms, addressing, and naming conventions across the
           Department. The OCIO also offers collaboration services, such as
           Microsoft SharePoint, to promote information sharing across the
           Department. Once implemented, these offerings should improve
           service levels and redundancy at a reduced cost. The DHS OCIO
           expects to have more than 100,000 users DHS-wide on the email
           service offering by the end of FY 2012.

           Creating a management structure for effective oversight and
           strategic management of Department-wide IT assets and programs
           has been a major challenge for the Department. In 2004, we

DHS Information Technology Management Has Improved, But Challenges Remain

                                 Page 4
                        reported that the DHS CIO had a significant role in guiding IT
                        resources and capabilities to fulfill the Department’s diverse
                        missions. 2 However, despite being tasked with DHS-wide IT
                        responsibilities, the CIO was not a member of the senior
                        management team. Also, there was no formal reporting relationship
                        between the DHS CIO and the CIOs of major component
                        organizations. We recommended that DHS implement plans for
                        centralizing IT, reposition the CIO to report directly to the Deputy
                        Secretary, document and communicate the roles of component-
                        level CIOs, provide the DHS OCIO with adequate staff resources,
                        and have component-level CIOs report to both the DHS CIO and
                        their respective agency heads.

                        In 2008, we reported that DHS had made progress to improve the
                        CIO’s oversight of IT acquisitions. 3 However, major challenges
                        remained. These challenges included continued OCIO staffing
                        shortages, insufficient implementation of component-level
                        management practices, and unmet goals in IT infrastructure
                        consolidation. We recommended that the DHS CIO augment the
                        DHS OCIO Staffing Plan to include specific actions and
                        milestones for recruiting and retaining full-time employees. We
                        also recommended that the DHS CIO ensure that component CIOs
                        (1) submit comprehensive, standardized IT budgets to the DHS
                        CIO and (2) develop and maintain IT strategic plans and enterprise
                        architectures that align with those of DHS.

                        Federal Agency CIO Benchmarking

                        We met with senior officials from five Federal agencies to discuss
                        how, based on Federal guidelines, they structured their IT
                        organizations to administer centralized management of IT to
                        support mission needs. We met with the Department of Energy
                        (DOE), Department of Justice (DOJ), Department of Health and
                        Human Services (HHS), Department of Agriculture (USDA), and
                        the Department of Veterans Affairs (VA). These agencies were
                        selected based on size or complexity comparable to DHS. We met
                        with the CIOs of these agencies to discuss organizational structure,
                        IT processes, policies, and procedures used to administer agency-
                        wide IT management. Table 1 summarizes this information in
                        comparison with DHS.




2
 Improvements Needed to DHS’ Information Technology Management Structure (OIG-04-30), July 2004.
3
 Progress Made in Strengthening DHS Information Technology Management, But Challenges Remain
(OIG-08-91), September 2008.

            DHS Information Technology Management Has Improved, But Challenges Remain

                                             Page 5
           Table 1: Comparison of DHS and Federal Agency CIOs

                                                       CIO
                                 Full-time           Controls Standard
                 Reports Total Federal IT FY 11         IT       IT
                  to the Agency    Staff   Total IT Spending Lifecycle
                 Agency Staff Under CIO Budget Agency-          Mgmt
                  Head (Federal) Control ($ Billion)  wide    Approach      .
             DHS    N    220,600   344        6         N        Y          6.1
             DOE      Y      16,000       144       2         Y         Y   9.1
             DOJ      N     112,000       289       3         N         Y   6.9
             HHS      N      73,000        94      7.2        N         Y   6.7
            USDA      N     120,000       1,056    2.5        Y         Y   8.1
              VA      Y     294,000       7,234    3.7        Y         Y   4.8
           ."Federal IT Dashboard Rating (as of October 2011)”

           Similar to DHS, three of the other five Federal CIOs do not report
           directly to their agency heads. However, the CIOs at the three
           agencies said that there is adequate opportunity to advise and
           influence leadership on agency-wide IT matters. The number of IT
           staff under the VA CIO’s control is considerably larger than the
           other five agencies. This is due, in part, to a 2006 realignment of
           all IT personnel to the CIO. With regard to IT budgets, HHS has
           the largest investment in IT at $7.2 billion; however, $3.25 billion
           of this is assigned for State grants. Three of the six CIOs claimed
           to have oversight and authority of agency-wide IT investments.
           The remaining three CIOs said that they do have some degree of
           influence over existing agency-wide IT investment review
           processes through investment review boards or other decision
           making bodies. All CIOs said that they had a standard IT life cycle
           management approach in place to ensure consistency across IT
           programs. Finally, all agencies have received a rating from the
           Federal IT Dashboard, which reflects the agency CIO evaluation,
           cost, and schedule for each investment.




DHS Information Technology Management Has Improved, But Challenges Remain

                                 Page 6
Results of Audit

        Progress Made To Establish CIO Oversight and Authority
                DHS has made progress in increasing DHS CIO oversight and authority of
                Department-wide IT programs and assets. Specifically, the OCIO has
                increased oversight of IT programs by conducting annual IT program
                reviews and implementing a new process to conduct in-depth reviews of
                selected IT programs. In addition, the DHS CIO has increased oversight
                of IT software, hardware, and infrastructure purchases through the IT
                acquisitions review process. Further, the Department has taken steps to
                better define the DHS CIO role. Increased CIO oversight and authority
                has resulted in better visibility of IT investments and programs, thus
                enabling the CIO to make strategic recommendations for reducing costs
                and duplication across the Department’s IT environment.

                         DHS CIO Has Established Formal Oversight of IT Programs

                         The Clinger-Cohen Act of 1996, 4 as amended, gives the CIO
                         responsibility for advising the agency head on whether IT
                         programs and projects should be continued, modified, or
                         terminated. The Federal CIO’s IT reform plan 5 requires agency
                         CIOs to implement initiatives to improve management of large-
                         scale IT programs. For example, agency CIOs must lead a series
                         of reviews, known as TechStat sessions, for selected IT
                         investments in order to identify program performance issues and
                         recommend corrective actions. In addition, Office of Management
                         and Budget (OMB) Memorandum M-11-29 6 states that agency
                         CIOs have responsibility for the agency’s entire IT portfolio. DHS
                         Management Directive (MD) 0007.1 7 defines such roles and
                         responsibilities of the DHS CIO as conducting program reviews,
                         recommending program improvements or corrective actions, and
                         providing the Office of the Secretary and component heads with an
                         annual evaluation of IT program performance.

                         The OCIO has increased its oversight of IT investments by
                         establishing a formal process to conduct annual reviews of IT
                         programs. In addition, the OCIO has adopted the TechStat process

4
  Public Law 104-106, Division E, Section 5125, February 10, 1996. The law, initially titled the

Information Technology Management Reform Act, was renamed the Clinger-Cohen Act of 1996 in Pub. L.

104-208, September 30, 1996.

5
  The 25 Point Implementation Plan To Reform Federal Information Technology Management, 

December 9, 2010.

6
  OMB M-11-29, Chief Information Officer Authorities, August 8, 2011.

7
  Department of Homeland Security, Management Directive 0007.1, Information Technology Integration 

and Management, March 15, 2007.


            DHS Information Technology Management Has Improved, But Challenges Remain

                                               Page 7
                         to conduct more in-depth reviews for a selection of major IT
                         programs.

                         Annual IT Program Reviews

                         The OCIO has established a process to conduct annual reviews of
                         IT programs and to improve accountability and visibility of
                         program performance (see figure 3). Program reviews are
                         facilitated by EBMO’s Program Governance Division and include
                         all major IT investments. EBMO personnel review program
                         documentation, such as OMB Exhibit 300s and previous
                         acquisition or program assessments, to evaluate performance and
                         issue ratings. The OCIO conducted reviews for 79 major IT
                         programs in FY 2010 and 48 additional IT programs in FY 2011.


                            EBMO provides                           DHS CIO holds
                                                                                        EBMO updates
                            program data to                         program review
                                                EBMO reviews                                 the IT
                             component for                            and assigns
                                                 assessment                             Dashboard with
                            verification and                         final program
                                                                                          final rating
                              assessment                                 rating




                         Figure 3: OCIO Program Review Process

                         These reviews also meet OMB’s requirement for CIOs to rate
                         programs in the areas of cost, schedule, and performance and
                         provide updates to the Federal IT Dashboard. 8 EBMO personnel
                         work with IT program stakeholders, including component CIOs,
                         DHS capital planning personnel, and component program
                         managers, to reach agreement on each program rating using pre­
                         established criteria. As of November 2011, the Federal IT
                         Dashboard included ratings for approximately 800 major
                         investments. DHS’ overall rating was 6.1 (out of 10) for a
                         combined 87 major IT investments.

                         The CIO also uses information from the reviews to identify issues
                         and develop specific recommendations for improving program
                         cost, schedule, and performance. At the time of our review, the
                         OCIO had issued 90 recommendations to the Deputy Secretary for
                         the 2013 budget year. Specifically, the CIO recommended that 81
                         IT investments continue as planned, eight investments be
                         continued but modified, and one be suspended. For example, the
                         CIO recommended a budget modification to reinstate $10 million
                         in funding per year for the CBP Traveler Enforcement Compliance

8
  In June 2009, OMB released a public website known as the Federal IT Dashboard to improve the
transparency and oversight of agencies’ IT investments.

             DHS Information Technology Management Has Improved, But Challenges Remain

                                                Page 8
           System Modernization in order to prevent further schedule delays.
           The CIO also recommended that FEMA suspend work on its
           National Flood Insurance Program Information Technology
           Systems and Services until business requirements were better
           defined.

           In-Depth IT Program Reviews

           The DHS OCIO further improved its IT program reviews by
           adopting the TechStat process and criteria, which enables a deep
           analysis of select IT programs. In 2011, EBMO established a
           TechStat Management Office to conduct reviews of selected high
           priority or high-risk IT investments that received low ratings in
           previous reviews. The TechStat Management Office conducts an
           in-depth analysis of program data and interviews stakeholders to
           determine the status of a program and the reasons for any problems
           identified. The TechStat process is illustrated in figure 4.

                                                               Facilitate
                                                                            Follow-Up:
                               Analysis:                       Review:
              Discovery:                                                    Track action
                              Collect and    Preparation:       Review
                Identify                                                     items and
                                analyze      Brief program   action items
              program for                                                   incorporate
                              investment     stakeholders    and timeline
                 review                                                        lessons
                                 data                            with
                                                                               learned
                                                             stakeholders



           Figure 4: OCIO TechStat Process

           As of August 2011, the OCIO had completed two TechStat
           reviews: the Student and Exchange Visitor Information System II
           and the DHS Infrastructure Transformation Program. Based on the
           results of these reviews, the OCIO made 13 recommendations to
           senior leadership and program managers to address challenges
           identified, such as program governance and staffing. For example,
           the OCIO TechStat Infrastructure Transformation Program review
           team recommended the establishment of an Executive Steering
           Committee consisting of senior-level stakeholders to ensure
           delivery of capabilities. At the time of our audit, 24 abbreviated
           TechStat reviews were completed or in progress.

           DHS CIO Has Increased Oversight of IT Acquisitions

           The Clinger-Cohen Act assigns the CIO responsibility for ensuring
           effective acquisition of IT resources. In addition, DHS MD 0007.1
           states that the DHS CIO is responsible for reviewing and
           approving IT acquisitions over $2.5 million.



DHS Information Technology Management Has Improved, But Challenges Remain

                                  Page 9
           The DHS CIO maintains oversight of IT software, hardware, and
           infrastructure purchases through routine reviews of all IT
           acquisitions over $2.5 million. Since our 2008 report, EBMO has
           established a dedicated IT Acquisition Review Branch to
           administer these reviews. The review allows the OCIO to verify
           compliance with technical standards, regulations, and alignment
           with DHS strategic goals and objectives.

           The volume of IT acquisition reviews has increased from 243 in
           FY 2007 to 387 in FY 2011. The number of approvals for IT
           acquisition requests has increased from 129 in FY 2007 to 311 in
           FY 2011. Figure 5 shows the number of IT acquisition requests
           submitted and reviewed and the number of requests approved from
           FY 2007 through FY 2011.




           Figure 5: DHS IT Acquisition Reviews FY 2007–2011

           EBMO is also taking steps to improve the IT acquisition process.
           In FY 2010, EBMO established a goal to process IT acquisitions
           within 10 business days. However, this goal was not met. Some
           IT acquisition reviews took up to 38 days. To address this
           situation, the IT Acquisition Review Branch will be making
           significant changes to streamline the component data required and
           refine the review procedures. For example, EBMO is working to
           reduce the number of questions the components must answer when
           preparing a request by 50 percent. EBMO also plans to increase
           efficiency by automating the review process using a web
           application. These efforts should reduce overall processing time
           and improve tracking capabilities for the entire Department.
           Additional planned enhancements to reduce the processing time
           include distinguishing between IT acquisitions that need to
           complete the entire review process and those that need to complete
           only certain steps.

DHS Information Technology Management Has Improved, But Challenges Remain

                                 Page 10
                           DHS CIO Responsibilities and Authority Are Better Defined

                           OMB M-11-29 clarifies the primary area of responsibility for
                           agency CIOs. Specifically, agency CIOs must drive the
                           investment review process for IT investments and have
                           responsibility for the entire IT portfolio, focus on eliminating
                           duplication in their agency’s IT investments, improve the overall
                           management of large IT projects, and have the authority and
                           responsibility to provide information security for the agency.

                           DHS has taken action to better define the CIO’s authority and
                           responsibility. Specifically, the DHS Deputy Secretary, in a May
                           2011 memorandum, 9 directed the CIO to take a greater role in the
                           review and execution of all IT infrastructure investments. To
                           formalize this guidance, the DHS Undersecretary for Management
                           began an effort to update the Delegation of Authority for the DHS
                           CIO. As of October 2011, the OCIO was incorporating revisions
                           from the DHS CIO and component CIOs in the revised draft
                           delegation.

                           The increased oversight of IT investments gained through the IT
                           program, TechStat, and acquisition reviews has provided the DHS
                           CIO with better visibility of Department-wide IT programs and
                           assets. The CIO has a central vantage point for IT capabilities that
                           perform similar functions or support mission needs. This
                           expanded visibility has enabled the CIO to identify opportunities
                           for reducing costs and duplication across the Department’s IT
                           environment. For example, the OCIO’s Enterprise Architecture
                           Office conducted a review of information sharing IT capabilities
                           and identified approximately 14 network portals that can be
                           consolidated within the Homeland Security Information Network
                           by FY 2013. The Enterprise Architecture Office recommended
                           that the Information Sharing Portfolio Governance Board
                           consolidate network portals to improve alignment with the
                           enterprise architecture. The OCIO expects to save at least
                           $42 million over the next five years from this effort.

                           The CIO has made additional recommendations to the Deputy
                           Secretary to reduce IT infrastructure duplication through program
                           reviews. For example, the CIO recommended that the National
                           Protection and Programs Directorate evaluate opportunities to
                           collaborate and leverage screening services and capabilities across
                           components as part of its ongoing IT infrastructure program. The

9
    DHS Deputy Secretary, Information Technology Efficiency, May 5, 2011.

               DHS Information Technology Management Has Improved, But Challenges Remain

                                                 Page 11
           OCIO is also planning to improve efficiencies by leveraging
           watchlist service capabilities between the Terrorist Screening
           Center and CBP to enable real-time updates of the Terrorist
           Screening Database. Likewise, the OCIO recommended a
           Department-wide repository for all biometric data that can be
           leveraged by multiple component systems.

           Finally, OCIO management officials said that TechStat reviews
           have provided additional opportunities for the CIO to issue
           corrective actions for programs. For example, the OCIO’s
           TechStat Office reviewed the Student and Exchange Visitor
           Information System II after the program did not meet its schedule
           in 2009. The Student and Exchange Visitor Information System II
           is a database and reporting system for tracking the visa status of
           nonimmigrant students and exchange visitors to the United States.
           Upon review, the TechStat team determined that the program
           lacked effective governance to control scope changes and make
           decisions, had inadequate staff resources to provide critical
           program services, and was not leveraging DHS enterprise customer
           account services. The TechStat Office recommended a new
           governance structure, further evaluation of staff to ensure
           appropriate staffing levels and capabilities, and inclusion in an
           enterprise-wide solution for customer account service.




DHS Information Technology Management Has Improved, But Challenges Remain

                                 Page 12
Progress Made Toward IT Integration
     DHS has taken steps toward achieving its Department-wide IT
     infrastructure integration goals. Specifically, the OCIO has met a number
     of milestones to consolidate data centers across the Department, integrate
     disparate component networks into a single DHS network, and create
     centralized email and collaboration services to improve information
     sharing. Progress has been leadership driven through the communication
     of Department-wide IT efficiency goals and priorities. The CIO has
     reiterated these goals by establishing high-priority initiatives that hold
     components accountable for completing consolidation efforts. Once
     completed, the Department expects that IT integration will result in
     improved disaster recovery capabilities, cost savings, and increased
     information sharing.

             Data Center Consolidation Efforts Underway

             The Paperwork Reduction Act of 1995 and the Clinger-Cohen Act
             of 1996 require agencies to ensure that IT is acquired, used, and
             managed to improve performance of agency missions. In addition,
             DHS MD 0007.1 requires the DHS CIO to direct the consolidation
             and optimization of DHS IT infrastructure equipment, services,
             people, and processes to improve IT interoperability and value in
             support of the DHS mission.

             The OCIO has taken a number of steps to consolidate component
             data centers. In the past, 43 separate computing sites supported the
             DHS components. The OCIO IT Services Office is coordinating
             and overseeing the provision of facility space and services for
             components at the two DHS enterprise data centers. The enterprise
             data centers, located in Mississippi and Virginia, are large-scale,
             physically secure facilities that offer various services and disaster
             recovery capabilities not previously available to some components.

             To accomplish the consolidation, each component will transfer its
             systems and services from existing sites to one of the two
             enterprise data centers or to a virtual space supported by the data
             centers. Once the transfer is complete, the enterprise data center
             assumes the operation of systems and services, and the component
             data centers are shut down. As of November 2011, DHS
             headquarters, FEMA, TSA, and CBP had migrated some
             applications from eight sites to a DHS enterprise data center. The
             transfer of operations from three additional sites to the enterprise
             data centers was to be completed by the end of 2011. Table 1 lists
             the component data centers that consolidated or were scheduled to
             consolidate with the enterprise data centers by the end of 2011.

  DHS Information Technology Management Has Improved, But Challenges Remain

                                   Page 13
                          Table 2: Enterprise Data Center Consolidation Efforts

                            Completed consolidation as of       Due to complete consolidation
                            November 2011                       by end of 2011
                                                                1. ICE/USCIS/United States
                            1. CBP – Commercial                     Visitor and Immigration Status
                               Recovery Facility                    Indicator Technology – Dallas
                                                                    site
                                                                2. ICE/USCIS/ United States
                                                                    Visitor and Immigration Status
                            2. CBP – Tysons site
                                                                    Indicator Technology –
                                                                    Rockville site
                            3. FEMA – N. Virginia
                                                                3. FEMA – Plano site
                               Commercial Data Center
                            4. TSA – IBM St. Louis Hosting
                               Center
                            5. TSA – Headquarters site
                            6. DHS – Ashburn Center
                            7. DHS – Stafford Center
                            8. DHS – HSDN Fair Lakes

                          All 43 component sites are projected to complete major migration
                          activity, such as transferring hardware and consolidating and
                          moving legacy systems, applications, and data, by the end of
                          FY 2014. However, OCIO officials said that funding uncertainty
                          could delay the completion of data center migration until FY 2015.

                          Although DHS has made progress toward consolidating data
                          centers, until migration is complete, the Department will incur
                          significant costs for unoccupied space at the two enterprise data
                          centers. In FY 2011, the Department paid more than $55 million
                          for unused space at the centers. The Department incurred this cost
                          even though the first enterprise data center had reached 75.5%
                          occupancy and the second data center had reached 56.4%
                          occupancy as of July 2011.

                          Component IT Network Consolidation Advances

                          In addition to the consolidation of data centers, the OCIO has taken
                          steps to consolidate existing individual component networks into
                          one integrated network—DHS OneNet. Specifically, DHS has
                          established an enterprise OneNet backbone, as well as a primary
                          and secondary network operations center and security operations
                          center. Seven major components 10 have signed up to receive
                          network and security services from OneNet. As of November
                          2011, five of the seven components were connected to OneNet.

10
     The seven major components are CBP, FEMA, ICE, TSA, USCIS, USCG, and USSS.

               DHS Information Technology Management Has Improved, But Challenges Remain

                                                Page 14
                          These components are able to access the Internet through OneNet’s
                          Trusted Internet Connection. 11 In addition, progress has been
                          made to establish a connection to both enterprise data centers and
                          to begin network security enhancements.

                          Additional steps are required to ensure complete connectivity to
                          OneNet. Specifically, all DHS components must be connected to
                          OneNet in order for each component’s transition to be complete.
                          However, at the time of our audit, only two components had
                          connected all sites to OneNet. To complete this step, components
                          are dependent on DHS’ implementation of the necessary security
                          for information sharing among the components. The OCIO is
                          working on expanding the OneNet infrastructure to accommodate
                          component-based security policies to enable all components to
                          connect existing sites to the DHS network. DHS plans to complete
                          the migration to OneNet by December 2013.

                          Enterprise IT Service Offerings Created

                          The OCIO has begun offering centralized IT services housed at the
                          two enterprise data centers, such as email and Microsoft SharePoint,
                          to foster communication among components and achieve economic
                          savings through consolidation. As of November 2011, one
                          component has subscribed to receive email services and two
                          additional components are testing the service. The email service
                          provides subscribers with a global address book and collaboration
                          capabilities, such as meeting scheduling and shared calendars. In
                          addition, three components have signed up to use the SharePoint
                          service. This service is expected to increase collaboration between
                          components through the use of a web-based application that allows
                          teams to work together on projects.

                          Additional efforts to improve information sharing include the
                          development of an information sharing environment, which is a
                          formal partnership among all levels of government, the private
                          sector, and foreign partners for facilitating access to information to
                          prevent future terrorist attacks. For this effort, the DHS OCIO
                          established an Information Sharing Environment Office in August
                          2011 to provide oversight and management for related programs,
                          such as the Common Operating Picture Program. The Common
                          Operating Picture Program provides analysis and storage of
                          information, improving situational awareness of potential threats to
                          the Nation’s infrastructure. The OCIO plans to complete an

11
  The Trusted Internet Connection initiative improves network security and incident response by reducing
and consolidating the number of external connections.

             DHS Information Technology Management Has Improved, But Challenges Remain

                                                 Page 15
                         upgrade of the Common Operating Picture Program in 2012, which
                         will include a centralized process for requesting information within
                         DHS. Plans are also underway to make this program available to
                         external partners. In addition, the OCIO’s Information Sharing
                         Environment Office participates in the National Information
                         Exchange Model, a collaborative effort to increase information
                         sharing among DHS, DOJ, HHS, and State, local, and private
                         stakeholders. Specifically, the National Information Exchange
                         Model establishes a framework with a common vocabulary to
                         improve sharing of intelligence. DHS is working to institutionalize
                         these information sharing initiatives.

                         IT Efficiency Goals and Priorities Established and
                         Communicated

                         The Department has been working to consolidate and integrate
                         component systems and hardware since 2003, but DHS
                         components have not always embraced these efforts. To address
                         this situation, Department leadership established IT efficiency
                         goals and priorities. For example, the Deputy Secretary identified
                         the advancement of operational efficiency for IT capabilities as a
                         Department-wide goal.

                         In addition, the DHS CIO made IT integration a top priority for
                         component CIOs in 2010 by including it on the Department’s high
                         priority IT initiatives list. The DHS CIO and the component CIOs
                         have agreed to include the transition to DHS OneNet and
                         enterprise data centers as formalized high priority initiatives for
                         FY 2011. For example, High Priority Initiative number 11-33,
                         documented in the OCIO’s FY 2011–2015 IT Strategic Plan, states
                         that DHS will continue management of components’ migration to
                         enterprise data centers. Component project managers are required
                         to report on progress for both data center and OneNet migration
                         efforts by updating a tracking tool that creates monthly status
                         reports. These updates, which are provided to the component
                         CIOs, demonstrate whether milestones have been met, and if not,
                         why they have not been met.

                         The DHS CIO has effectively communicated the goals for
                         achieving IT integration across the Department to the components
                         through numerous OCIO outreach efforts. For example, the DHS
                         CIO outlined the next steps for DHS IT infrastructure consolidation
                         in a 2011 memorandum 12 to the Department. This memorandum

12
  DHS CIO, Next Steps in IT Infrastructure Rationalization and the DHS Data Center Consolidation
Strategy, August 12, 2011.

             DHS Information Technology Management Has Improved, But Challenges Remain

                                               Page 16
                          also included requirements that components move to both email
                          and collaboration services. Additionally, the DHS CIO uses the
                          CIO Council to communicate goals and objectives for achieving
                          Department-wide IT integration. The OCIO has also created
                          several documents to further explain and promote the different
                          aspects of Department-wide integration, including data center
                          migration and OneNet, and made them available on its website.
                          For example, a Data Center Migration Customer Guide provides an
                          overview of the migration process, including the costs and
                          benefits. Also, the OCIO provides components with a service
                          catalog that lists the different Department-wide services being
                          offered. Finally, OCIO representatives have visited components to
                          present a complete overview of the different service offerings.

                          Integration Benefits Being Realized

                          The Department is starting to realize the benefits of its integration
                          efforts. Specifically, the components that have transferred
                          operations to the enterprise data centers have enhanced disaster
                          recovery capabilities. The two enterprise data centers are equipped
                          with redundant facilities and services and are in geographically
                          dispersed locations. In addition, both data centers offer remote
                          management solutions and continuity of operations in the event of
                          a disaster.

                          Some components are also realizing cost savings from the data
                          center consolidation and enterprise services. Specifically, the
                          consolidation of the Department’s data centers alleviates
                          components’ costs for building and maintaining individual data
                          center facilities. Although components moving to the data centers
                          must pay certain fees, 13 OCIO IT Services Office officials said that
                          components eliminate the costs of maintaining individual legacy
                          data center facilities, which results in savings for some
                          components. For example, TSA is saving more than $8 million
                          annually in reduced operations costs after moving its primary
                          systems from Missouri to the enterprise data centers.

                          Subscribing to DHS’ enterprise IT service offerings has also
                          resulted in cost savings. For example, FEMA is saving on annual
                          costs by transitioning its existing email service to the enterprise
                          email service hosted in the DHS enterprise data center. Using the
                          email service reduced the cost of FEMA’s individual email
                          mailboxes from $300 each to $29 each. Additional benefits were

13
  Components migrating to the DHS enterprise data centers pay a one-time charge, a technical service
charge for operations and maintenance, and an annual charge for space used.

             DHS Information Technology Management Has Improved, But Challenges Remain

                                                 Page 17
           gained as FEMA was able to reduce the number of dedicated IT
           staff working on email from eight to two. In addition, FEMA IT
           officials said the enterprise email service included hardware
           upgrades and improved email capabilities, such as increased
           capacity and dynamic archiving.

           The Department’s transition to enterprise-level networks and
           services is improving collaboration and information sharing.
           Specifically, DHS is offering access to OneNet for Federal, State,
           local, and tribal governments, and provides gateways for data
           exchange between DHS and other networks, including the
           Department of Defense. The enterprise-wide services, such as
           SharePoint, also increase collaboration and information sharing by
           providing users with basic and custom sites to work with team
           members on projects. Finally, the Information Sharing
           Environment Office’s upgrade of the DHS Common Operating
           Picture Program and increased use of the National Information
           Exchange Model are expected to improve access to information to
           help prevent future terrorist attacks. An upgraded Common
           Operating Picture Program will be completed in 2012, which will
           include the deployment of a centralized request for information
           process within DHS. Further, the National Information Exchange
           Model is implementing a strategy for increasing implementation of
           the program throughout all areas of State and local government.




DHS Information Technology Management Has Improved, But Challenges Remain

                                 Page 18
           Progress Made To Advance IT Management Functions,
           But Further Improvements Are Needed
                   DHS has made progress in improving IT management functions since our
                   audit in 2008. Specifically, the OCIO has taken steps to mature key IT
                   management functions and to ensure that they are carried out in an
                   integrated fashion to improve CIO decision making. These improvements
                   are due to an increase in OCIO staffing levels, organizational restructuring,
                   and better collaboration among component CIOs. However, challenges
                   remain to recruit people with the right skill sets to perform certain IT
                   management functions. Further, other challenges remain to improve the
                   effectiveness of the CIO’s current IT budget review process to enable the
                   CIO to identify and remediate issues before IT investments are finalized.

                            Progress Made To Improve IT Management Functions

                            The Clinger-Cohen Act of 1996 requires that Federal departments
                            and agencies establish CIOs to institute, guide, and oversee
                            frameworks for managing IT Department-wide. Additionally,
                            DHS MD 0007.1 gives the CIO the responsibility to lead, govern,
                            integrate, and manage IT functions throughout the Department.

                            The OCIO has made progress in improving IT management
                            functions since our review in 2008. Specifically, it has taken steps
                            to mature key management practices, such as strategic planning,
                            Capital Planning and Investment Control (CPIC), enterprise
                            architecture, portfolio management, and IT budget reviews.

                            Strategic Planning

                            The Government Performance and Results Act holds Federal
                            agencies responsible for strategic planning to ensure efficient and
                            effective operations and use of resources to achieve mission
                            results. 14 In addition, DHS MD 0007.1 states that CIOs are
                            responsible for developing and implementing a detailed IT
                            strategic plan. The OCIO developed an IT strategic plan for
                            FY 2011–2015 that includes a clear vision, goals, and objectives to
                            optimize the Department’s IT infrastructure, applications, and
                            services. The goals and priorities documented in the plan, and
                            presented in figure 6, were vetted across all components to ensure
                            collaboration and buy-in.




14
     PL 103-62, Government Performance and Results Act of 1993, August 3, 1993.

               DHS Information Technology Management Has Improved, But Challenges Remain

                                                 Page 19
                                              FY 2011–2015 DHS IT Strategic Goals
                          Goal 1                Goal 2                Goal 3               Goal 4
                          Establish secure      Strengthen and        Improve              Develop and
                          IT infrastructure     unify the             transparency and     implement a
                          capabilities to       Department's          accountability       comprehensive
                          protect the           ability to share      through effective    approach to IT
                          homeland and          information           governance of        employee recruitment,
                          enhance our           internally and with   cross-departmental   development,
                          Nation's              Federal, State,       IT portfolios.       retention and
                          preparedness,         local, and tribal                          recognition to ensure
                          mitigation, and       partners.                                  excellence in IT
                          recovery                                                         delivery across the
                          capabilities.                                                    Department.


                         Figure 6: DHS IT Strategic Goals

                         The OCIO has a process in place to update the IT strategic plan
                         annually. The DHS CIO also facilitates an annual process with all
                         component CIOs to select the OCIO’s yearly high priority
                         initiatives. These initiatives are included as an appendix to the IT
                         strategic plan. As of November 2011, the OCIO was updating the
                         IT strategic plan to include 30 FY 2012 high priority initiatives.

                         CPIC

                         OMB A-130 states that agencies must evaluate each IT investment
                         to determine whether the investment will support mission
                         functions. 15 DHS MD 4200.1 establishes a process for ensuring
                         that IT investments support the agency’s mission and business
                         needs. 16 CPIC is DHS’ primary process for making decisions
                         about the systems in which the Department should invest. CPIC
                         includes four cycles to plan, select, control, and evaluate IT
                         investments in support of the annual budget cycle. In our 2008
                         audit, we reported that the DHS OCIO had established a process to
                         ensure that IT investments have solid Exhibit 300 business case
                         documentation pursuant to the annual OMB budget process. 17

                         Since 2008, the OCIO has continued to execute its process to
                         review Exhibit 300 business cases to effectively govern the four
                         phases of the CPIC cycle. According to EBMO management, the
                         process has remained consistent over the past several years, with
                         minimal changes. Representatives from all components perform
                         CPIC duties and belong to the OCIO’s CPIC Administrators

15
   OMB Circular A-130, Revised, Management of Federal Information Resources.

16
   Department of Homeland Security, Management Directive 4200.1, IT Capital Planning and Investment

Control (CPIC) and Portfolio Management.

17
   Progress Made in Strengthening DHS Information Technology Management, But Challenges Remain
(OIG-08-91), September 2008.

             DHS Information Technology Management Has Improved, But Challenges Remain

                                                   Page 20
                        Group. The OCIO facilitates biweekly meetings for this group to
                        provide guidance or discuss specific issues, as well as to answer
                        questions from component representatives. EBMO published a
                        new CPIC guide and communicated the guide to components in
                        2011 to ensure adherence to the current CPIC process.

                        Enterprise Architecture

                        The Clinger-Cohen Act charges CIOs with developing and
                        maintaining an enterprise architecture. In our 2008 audit, we
                        reported that the DHS OCIO had implemented an Enterprise
                        Architecture Review Board to improve Department-wide IT
                        management functions, such as reviewing and making
                        recommendations to the DHS CIO for approving IT investments
                        that are in line with the Department’s mission and priorities. 18

                        Since 2008, the OCIO has continued to execute Department-wide
                        enterprise architecture efforts to drive IT development and decision
                        making toward DHS mission needs. Specifically, the OCIO has
                        established a Homeland Security Enterprise Architecture to define
                        the current and future blueprint of Department-wide technology as
                        it supports DHS’ strategy and mission. The OCIO is using the
                        Homeland Security Enterprise Architecture as a standard reference
                        point to review investments for program alignment and technology
                        decision requests. The OCIO has also established an Enterprise
                        Architecture Program Management Office to advise DHS
                        component agencies how to use the enterprise architecture to
                        ensure that programs and IT initiatives are meeting Federal and
                        departmental oversight and reporting requirements.

                        The OCIO has also piloted a process for developing segment
                        architectures across DHS. Segment architecture development
                        efforts are a business-driven process that establishes a detailed
                        baseline architecture and transition plan for a particular segment of
                        IT functions. The OCIO completed its first segment architecture
                        for human capital functions in 2011. This effort provided the
                        Department with a documented blueprint, which includes a
                        comprehensive inventory of more than 400 human resources
                        systems. Additional efforts are underway to define segment
                        architectures for screening, IT infrastructure, and financial
                        management capabilities.




18
  Progress Made in Strengthening DHS Information Technology Management, But Challenges Remain
(OIG-08-91), September 2008.

            DHS Information Technology Management Has Improved, But Challenges Remain

                                             Page 21
                        Portfolio Management

                        As part of the selection component of the capital planning process,
                        OMB Circular A-130 requires agencies to prepare and maintain a
                        portfolio of major IT systems that monitors investments and
                        prevents redundancy of existing or shared IT capabilities. DHS
                        MD 0007.1 establishes DHS policies and assigns responsibilities
                        for managing IT investment using portfolio management, which
                        involves developing groups of related DHS IT investments and
                        assets. In 2008, we reported that the DHS OCIO had established
                        22 portfolios based on DHS mission areas, goals, and objectives to
                        increase visibility of IT programs, projects, and systems. 19

                        Since 2008, the DHS CIO has refined its approach to include
                        functionally oriented portfolios for mission support and business
                        functions. Specifically, the OCIO has identified 13 portfolios that
                        group IT capabilities according to similar functions, such as the
                        screening of individuals or incident response handling (see figure
                        7). The OCIO is conducting a pilot of three portfolios—Human
                        Resources IT, Screening, and Information Sharing—as part of the
                        FY 2012 budget cycle.




                        Figure 7: DHS Portfolios as of November 2011

                        The OCIO conducts an annual portfolio analysis to align IT
                        investments with portfolios and identify redundancies or gaps. At
                        the time of our audit, the OCIO had aligned more than 650 IT
                        investments with the 13 portfolios. To perform this analysis,
                        EBMO facilitates a portfolio review, with involvement from
                        component CIOs, mission stakeholders, and DHS OCIO subject
                        matter experts. Participants review IT investment data received

19
  Progress Made in Strengthening DHS Information Technology Management, But Challenges Remain
(OIG-08-91), September 2008.

            DHS Information Technology Management Has Improved, But Challenges Remain

                                             Page 22
           from components during annual IT budget submissions, such as
           Capital Investment Plans. Findings from the portfolio analysis are
           provided to DHS executives and used as input for Program Review
           Board activities. The review conducted during the FY 2013
           budget cycle marked the OCIO’s second annual portfolio analysis.

           As part of its overall portfolio management effort, the OCIO is
           establishing a portfolio-based governance structure, which will
           help it to integrate and streamline decision making. To do this, the
           OCIO has established an enterprise-wide governance model, which
           includes an integrated framework for governing the Department’s
           IT investments within each functional portfolio. The model,
           pictured in figure 8, leverages portfolio management and enterprise
           architecture practices as well as existing governance boards in
           order to facilitate decision making.

                                                                                                            OMB
                                                                                                                                                                  Performance Reporting


                                                  Functional Portfolios        Components
                          Department                                                                 Program                                                  Investment
                           Strategy                                                                Review Board                                              Review Board
                            Council                   Portfolio 1             Capabilities &
                                                                                                      (PRB)                                                      (IRB)
                                                             FCO              Requirements
                        – QHSR                                                Council (CRC)
                        – Missions (5)
                        – Top Level Objectives            Domain 1                                          PA&E
                                                                               Budget Planning
                                                                               Recommendations




                                                                                                             Performance Reporting
                                                          Domain 2
                                                                                                                                                                                     DHS
                                                                                                                                                                Executive            TechStat
                                                                                                                                                                Steering             Program
                                                                                                                                                               Committee             Review
                                                      Portfolio 2
                                                                                                                                                                  (ESC)              Process
                                                             FCO
                                                                                                                                                                                   Program Data
             Portfolio Steering Committee                 Domain 1                                                                                                                  Performance
            - Execs from across Components                                                                                                                      Program             Reporting
              and HQ both IT and Business                                                                                            Decision                 Management
                                                          Domain 2
            - SMEs                                                                                                                   Support                  Office (PMO)
            - Functional Coordination Office                                                                                           Tool
              (FCOs)

                                        Supports

                                               Enterprise Architecture                                                                          Program Management Center of Excellence
                                                                                                                                                                  (PMCOE)
                                        (Portfolios aligned with EA Segments)
                                  - Business Architecture - Data Architecture                                                               - Centers of Excellence       -   SME Support
                                  - Technical Architecture
                                                         - Enterprise Transition
                                                                                                                                            - Process Asset Library (best -   PM Development
                                  - Performance
                                                                                                                                              practices, process, guidance,   Track
                                                             Strategy
                                    Architecture           - Capability Roadmap                                                               artifacts, proven examples) -   Mentoring

                                                                                                 Planning                                          Execution


           Figure 8: DHS Enterprise Governance Model, Draft

           With this hierarchical governance structure, the OCIO plans to
           ensure that decisions are delegated to the appropriate governance
           level. Program-specific acquisitions decision events and enterprise
           architecture decisions are delegated to the appropriate portfolio or
           program-level governance board. The OCIO is in the early stages
           of piloting this governance model.

           As part of the governance structure, the OCIO has implemented 14
           executive steering committees to ensure collaboration and support
           from components to strategically govern investments. For example,
           a Human Resources Steering Committee was established in 2010.
           This committee includes membership from the OCIO, the DHS

DHS Information Technology Management Has Improved, But Challenges Remain

                                                          Page 23
                        Chief Human Capital Office, component CIOs, component Human
                        Resources Directors, and the DHS Management Directorate.
                        OCIO leadership said that this effort exemplified unprecedented
                        Department-wide partnerships between the DHS Human Capital
                        and IT communities.

                        The OCIO plans to further develop this new governance model as
                        a framework to integrate portfolio management and enterprise
                        architecture functions to improve alignment between IT assets,
                        mission needs, and departmental strategy. The outcome of this
                        process will include recommendations to the Program Review
                        Board as to which investments to fund.

                        OCIO Organizational Improvements Made

                        IT management improvements are credited, in part, to the increase
                        in OCIO’s full-time staffing level, organizational restructuring, and
                        effective collaboration among component CIOs. In 2008, we
                        reported that the DHS CIO was well positioned to manage IT
                        resources, but was limited by insufficient staff resources to carry
                        out the increasing IT management activities needed to support the
                        Department. 20 Since that time, the OCIO has increased staffing
                        significantly, from 71 full-time employees in 2008 to
                        approximately 344 full-time employees in 2011. The OCIO plans
                        to further expand its staffing level to nearly 450 by the fourth
                        quarter of 2012. The OCIO staffing levels from 2008 to 2012 are
                        depicted in figure 9.

                                                 OCIO Staffing
                         500

                         450
                                 450
                         400

                         350
                  344
                         300

                                                                              2008 Actual
                         250
                                                                              2011 Actual
                         200                                                  2012 Planned
                         150

                         100

                                 71
                          50

                           0

                                2008 Actual    2011 Actual   2012 Planned


                        Figure 9: OCIO Staffing Levels as of October 2011




20
  Progress Made in Strengthening DHS Information Technology Management, But Challenges Remain
(OIG-08-91), September 2008.

            DHS Information Technology Management Has Improved, But Challenges Remain

                                              Page 24
           Although the OCIO has increased its staff, finding people with the
           right skills to perform certain work, such as IT budget and
           portfolio reviews, remains a challenge. For example, there is only
           one full-time employee responsible for performing IT budget
           functions. This one employee conducted 75 percent of the
           portfolio review work for approximately 90 IT programs in FY
           2010. The OCIO augments its staff by bringing in temporary
           assistance from other divisions or by coordinating with subject
           matter experts to conduct reviews. However, until offices such as
           EBMO are staffed sufficiently, budget and portfolio reviews may
           be hindered.

           Additionally, the OCIO has restructured its six divisions to
           administer IT management practices more effectively.
           Specifically, EBMO was recently reorganized to establish a new
           Enterprise Portfolio Governance Division dedicated to executing
           portfolio reviews. This division provides support to portfolio
           stakeholders to administer portfolio activities, such as aligning
           programs with portfolios, creating baseline portfolios, and
           establishing portfolio pilot efforts. The OCIO also established a
           TechStat Management Office to conduct TechStat reviews. These
           offices are in the process of drafting a new concept of operations to
           reflect these new responsibilities.

           Finally, the DHS OCIO improved communications and
           collaboration among component CIOs through biweekly CIO
           Council meetings. Component CIOs and Deputy CIOs told us that
           this forum provides an opportunity to communicate questions and
           issues to the DHS CIO and for the DHS CIO to communicate
           initiatives and priorities to the components.

           Strategic Management of Department-wide IT

           Specific IT management functions, such as portfolio reviews and
           enterprise architecture development, have enabled the DHS CIO to
           improve its strategic management of Department-wide IT assets
           and programs. Specifically, portfolio reviews have given the CIO
           visibility over the widespread challenges faced by many IT
           programs and the opportunity to recommend departmental
           improvements. For example, the CIO observed that many
           components are underinvesting in IT infrastructure and that the
           reuse and leveraging of IT systems and capabilities across
           components has not been optimized.

           The portfolio reviews have also generated better visibility of
           specific IT systems and capabilities that can be consolidated. As

DHS Information Technology Management Has Improved, But Challenges Remain

                                 Page 25
           part of the portfolio analysis work, the OCIO has identified more
           than 650 IT systems used to support similar functions. This
           information is further enhanced by progress to document segment
           architectures, which provides an inventory of processes, databases,
           and systems for each segment. As a result, the CIO is better able
           to conduct centralized management of IT within each portfolio,
           creating opportunities to recommend collaboration across
           components performing similar functions. For example, in 2011, a
           group of cross-component vetting subject matter experts performed
           a comprehensive review of Department-wide screening IT
           capabilities used to perform vetting functions. Currently,
           individual vetting checks are performed in more than 30 different
           systems across DHS with more than 100 unique business
           processes. The evaluation concluded with recommendations to
           centralize vetting services or leverage existing DHS services to
           reduce duplication of IT capabilities. Planning efforts are
           underway to leverage existing vetting data sources and improve
           automation among ICE, US-VISIT, and CBP. OCIO management
           told us that a DHS Vetting Executive Governance Board will be
           established to facilitate additional incremental enhancement to
           reach long-term enterprise solutions for vetting services.

           The completion of segment architectures also provides the OCIO
           with a foundation for making better informed decisions to reduce
           redundancy and achieve cost savings. For example, the Human
           Capital Segment Architecture effort produced the Department’s
           first human resources system inventory, which identified 422
           systems and applications. Many of these systems are highly
           customized and suited for single use. As a result, the Human
           Resources IT Executive Steering Committee, a team of human
           resources and IT representatives, made approximately 50
           recommendations to consolidate IT systems, integrate data
           repositories, and leverage existing IT platforms, among others.
           The DHS CIO said the Human Capital Segment Architecture will
           be a model for conducting segment architectures going forward.
           At the time of our review, the OCIO was working with the DHS
           Screening Coordination Office and DHS executives to establish the
           governance necessary to develop the Screening Segment
           Architecture.

           Challenges Remain To Improve IT Budget Planning Practices

           Although the DHS CIO reviews IT budgets submitted by
           components, early involvement in the components’ IT budget
           planning process has been limited.


DHS Information Technology Management Has Improved, But Challenges Remain

                                 Page 26
                        DHS MD 0007.1 assigns the CIO responsibility for reviewing and
                        approving the DHS components’ IT budgets. 21 In addition, this
                        directive specifies that component CIOs are responsible for
                        submitting IT budget to the DHS Chief Financial Officer (CFO) as
                        part of the normal planning, programming, budgeting, and
                        execution process.

                        The DHS OCIO Conducts a Comprehensive IT Budget Review

                        The DHS CIO conducts a review of all components’ IT budgets as
                        part of the DHS IT budget formulation process. To accomplish
                        this, the OCIO uses the DHS CFO’s Resource Allocation Plan
                        (RAP) process to solicit IT budgets from each component. OCIO
                        IT Budget Office personnel review component capital investment
                        plans and supporting documents to confirm alignment of each
                        investment with strategic goals and portfolios. The Budget Office
                        also checks IT investments to confirm alignment with high priority
                        departmental initiatives and plans for implementing the IT Reform
                        Plan. Table 3 depicts the existing budget review process.

                        Table 3: DHS OCIO IT Budget Review Process

                           � Components submit resource allocation plans in spring
                             (includes 5-year resource plan)
                           � CIO conducts review of IT resource allocation plans
                           � EBMO’s Performance Management Division conducts an
                             IT-focused analysis of the RAP submissions
                             � Analyze and consolidate information for the component
                             � Conduct review with component or DHS headquarters unit
                             � Consolidate financial performance data for inclusion in DHS
                                  CIO performance report “package”
                             � Record DHS CIO questions and/or decisions taken for
                                  follow up, monitoring, and status reporting
                           � Draft resource allocation decisions issued to components
                           � Components have the opportunity to appeal decisions
                           � Secretary and Deputy Secretary make final decisions
                           � Final resource allocation decision issued; defines the budget
                             and future years Homeland Security program for submission to
                             OMB

                        The IT budget review results are compiled into an executive
                        briefing, which includes analysis and findings from the budget
                        review as well as the portfolio reviews. The results include a set of
                        CIO recommendations, by portfolio, that are used to support the

21
  DHS MD 0007.1 requires the DHS CIO to submit IT budget submissions to the DHS CFO as part of the
annual Planning, Programming, Budgeting and Execution process.

            DHS Information Technology Management Has Improved, But Challenges Remain

                                              Page 27
           CFO and DHS leadership in the program and budget review
           decision making process. Together, these reviews are essential for
           the DHS CIO’s visibility of the IT budget across DHS in order to
           remediate IT budget issues before submitting the budget to OMB.

           The IT budget reviews have provided the CIO with insight into
           each component’s IT spending plans. For example, a review of
           one component’s IT budget revealed a funding request for
           approximately $6 million to improve IT infrastructure. However,
           the OCIO had requested $91 million from the component for data
           center migration costs for the same budget year, highlighting a
           discrepancy in funding plans. OCIO management officials said
           that although the IT budget reviews are useful to confirm that
           component plans are in line with departmental priorities, they are
           not effective for changing existing component IT spending plans.

           The CIO Is Not Adequately Involved in IT Budget Planning

           Although the Department has given the CIO authority over IT
           spending, challenges remain for the CIO to affect budget decisions.
           Specifically, the CIO is not involved in and thus cannot provide
           input during the component IT budget planning process. To obtain
           funding for new initiatives, initial planning activities begin in the
           previous fiscal year during the budgetary planning phase. These
           planning steps are completed prior to the Department’s budget
           programming phase. The CFO RAP process takes place after
           components have completed their planning for specific IT
           initiatives. Therefore, the CIO IT budget reviews do not directly
           affect the amount of funding components receive. As a result,
           components can obtain funding for IT investments regardless of
           the decisions made during the budget review process.

           Additional challenges arise when components submit incomplete
           IT budget data, preventing the OCIO from performing meaningful
           analysis of budget plans. According to EBMO management,
           component budget submissions often lack detail or include
           irrelevant and out-of-date information. For example, as part of the
           budget review process for FY 2010, one component submitted
           requests for more than $250 million without providing the OCIO
           with sufficient information on the funds’ specific purpose. In the
           same fiscal year, another component failed to include information
           on important milestones for more than half a dozen initiatives. The
           lack of quality data also affects other important OCIO management
           functions, such as portfolio reviews, which rely on the same
           component budget documentation.


DHS Information Technology Management Has Improved, But Challenges Remain

                                 Page 28
                             The combination of the CIO’s exclusion from the early budget
                             planning stages and missing or poor component budget information
                             limits the CIO’s ability to make meaningful decisions and
                             recommendations. Without earlier insight into and review of IT
                             budget planning, the CIO cannot ensure that component IT budget
                             plans are in alignment with departmental IT goals and objectives.
                             Additionally, delayed inclusion in the planning process limits the
                             CIO’s ability to remediate IT budget issues prior to their formal
                             submission to OMB as part of the Homeland Security budget.

                             Other Federal agencies experience similar challenges. Three of the
                             five external Federal agency IT officials with whom we met faced
                             similar problems with the budget process. These problems
                             included issues with budget execution, limited oversight, a lack of
                             real enforcement capability, and the need for better visibility and
                             oversight. For example, one Federal CIO told us that enforcing
                             budget authority presents organizational challenges, forcing this
                             official to rely on the Secretary for enforcement support. Another
                             Federal IT official voiced similar concerns with the CIO’s inability
                             to veto potential problem programs.

                             VA officials told us that they have been successful in addressing
                             these issues through a combination of new policy and
                             organizational restructuring. For example, VA leadership granted
                             the CIO authority over all IT funds in 2006. In addition, Congress
                             approved legislation mandating the VA CIO to manage all IT
                             resources and authorized a separate IT appropriation account for
                             the VA in 2006. 22 Prior to this, the VA CIO had direct control
                             over only 3 percent of the VA’s IT budget and 6 percent of its IT
                             personnel. Efforts to consolidate all IT planning and budgeting
                             activities as well as restructuring IT personnel have provided the
                             CIO with full control over the agency’s IT investments. As a
                             result, according to VA senior officials, the CIO is more effective
                             in stopping funding for programs. For example, the CIO halted 45
                             underperforming IT programs in July 2009 and eventually
                             canceled 12 of them. The CIO credits this type of success to
                             having sufficient control over the IT budget.

                             The OCIO Plans To Improve Budget Planning

                             To help address these concerns, the OCIO plans to further its
                             enterprise portfolio governance approach to ensure that component
                             IT budget planning activities are more cohesive and strategic. As
                             this is accomplished, budget planning should be conducted from a

22
     Section 222 of P.L. No. 109-114; H. R. Rep. No. 109-305, at 50 (2005) (Conf. Rep.).

                DHS Information Technology Management Has Improved, But Challenges Remain

                                                   Page 29
           portfolio perspective. Once in place, portfolio steering committees
           would analyze and consolidate capabilities, which would feed into
           the budget planning recommendations and result in budget requests
           that align with portfolio and departmental goals. The process is
           designed so that portfolio and program reviews are conducted prior
           to OMB and Investment Review Board reviews, thus resulting in
           decisions that can be factored into budget plans. The CIO expects
           that this approach, depicted in figure 10, will result in component-
           level IT funding plans that align with a unified portfolio and
           departmental strategy.

                                                                                                            OMB
                                                                                                                                                                  Performance Reporting


                                                  Functional Portfolios        Components
                          Department                                                                 Program                                                  Investment
                           Strategy                                                                Review Board                                              Review Board
                            Council                   Portfolio 1             Capabilities &
                                                                                                      (PRB)                                                      (IRB)
                                                             FCO              Requirements
                        – QHSR                                                Council (CRC)
                        – Missions (5)
                        – Top Level Objectives            Domain 1                                          PA&E
                                                                               Budget Planning
                                                                               Recommendations




                                                                                                             Performance Reporting
                                                          Domain 2
                                                                                                                                                                                     DHS
                                                                                                                                                                Executive            TechStat
                                                                                                                                                                Steering             Program
                                                                                                                                                               Committee             Review
                                                      Portfolio 2
                                                                                                                                                                  (ESC)              Process
                                                             FCO
                                                                                                                                                                                   Program Data
             Portfolio Steering Committee                 Domain 1                                                                                                                  Performance
            - Execs from across Components                                                                                                                      Program             Reporting
              and HQ both IT and Business                                                                                            Decision                 Management
                                                          Domain 2
            - SMEs                                                                                                                   Support                  Office (PMO)
            - Functional Coordination Office                                                                                          Tool
              (FCOs)

                                        Supports

                                               Enterprise Architecture                                                                          Program Management Center of Excellence
                                                                                                                                                                  (PMCOE)
                                        (Portfolios aligned with EA Segments)
                                  - Business Architecture - Data Architecture                                                               - Centers of Excellence       -   SME Support
                                  - Technical Architecture
                                                         - Enterprise Transition
                                                                                                                                            - Process Asset Library (best -   PM Development
                                  - Performance
                                                                                                                                              practices, process, guidance,   Track
                                                             Strategy
                                    Architecture           - Capability Roadmap                                                               artifacts, proven examples) -   Mentoring

                                                                                                 Planning                                          Execution


            Figure 10: Budget Alignment in DHS Governance Operating Model, Draft

           This process, once fully implemented, should enable the DHS CIO
           to evaluate IT resource allocation plans from a portfolio perspective
           to promote effective alignment of IT resources. The DHS OCIO
           plans to mature its portfolio management approach to augment
           budget reviews and align IT investments with portfolios earlier in
           the budget cycle. However, until the OCIO fully implements its
           portfolio management approach, the CIO will be unable to ensure
           that IT acquisitions align with the Department’s strategic goals and
           objectives.




DHS Information Technology Management Has Improved, But Challenges Remain

                                                         Page 30
Recommendation
     We recommend that the Deputy Under Secretary for Management:

     Recommendation: Assign the DHS CIO centralized control over the
     Department’s IT budget planning process to review, guide, and approve IT
     investments.

Management Comments and OIG Analysis
     We obtained written comments on a draft of this report from the Deputy
     Under Secretary for Management for DHS. We have included a copy of
     the comments in their entirety in appendix B.

     In the comments, the DHS Deputy Under Secretary for Management
     concurred with our report recommendation and provided comments on
     specific areas within the report. We have reviewed management’s
     comments and provide an evaluation below.

     In response to our recommendation, the DHS Deputy Under Secretary for
     Management states that, consistent with the Clinger-Cohen Act of 1996,
     the OCIO is firmly integrated with the processes for making budget,
     financial, and program management decisions within the agency.

     We do not agree that the OCIO is, as yet, “firmly integrated” into DHS IT
     budget processes. We determined that the CIO needs to participate earlier
     in the budget planning process so that the CIO can ensure that component
     IT budget plans are in alignment with departmental goals and objectives.
     As such, we look forward to hearing more about the Department’s plans to
     ensure the CIO’s integration into the Department’s budget planning
     process to review, guide, and approve IT investments.




  DHS Information Technology Management Has Improved, But Challenges Remain

                                   Page 31
Appendix A
Purpose, Scope, and Methodology

                    As part of our ongoing responsibilities to assess the efficiency,
                    effectiveness, and economy of departmental programs and
                    operations, we conducted this audit to determine progress made in
                    establishing CIO oversight and authority, achieving IT integration,
                    improving IT management functions, and addressing our prior
                    report recommendations.

                    We researched and reviewed Federal laws and executive guidance
                    related to IT management and CIO governance. We obtained
                    published reports, documents, and news articles regarding DHS
                    CIO operations and IT management throughout the Department.
                    Additionally, we reviewed recent Government Accountability
                    Office (GAO) and DHS OIG reports to identify prior findings and
                    recommendations. We used this information to establish a data
                    collection approach that consisted of focused interviews and
                    documentation analysis to accomplish our audit objectives.

                    We held interviews at DHS CIO headquarters and offices. We
                    interviewed more than 20 DHS CIO headquarters officials,
                    including the CIO, the Deputy CIO, executive directors, and
                    branch leads to discuss their roles and responsibilities, progress in
                    establishing CIO authority, improvements to management
                    functions, and accomplishments toward achieving IT integration.
                    We discussed CIO budget authority, IT portfolio management, and
                    enterprise-wide IT services. We also met with the Program
                    Accountability Risk Management within the Office of the Chief
                    Procurement Officer to understand the enterprise acquisition
                    process and the level of authority the Department’s CIO has over
                    IT acquisitions. We collected supporting documents about DHS IT
                    management, the IT budget process, and current integration efforts.
                    Further, we met with CIOs and Deputy CIOs at DOE, DOJ, HHS,
                    USDA, and VA to learn best practices and CIO authority at
                    external agencies.

                    To assess the effectiveness of current departmental IT management
                    practices, we interviewed CIOs and Deputy CIOs from the seven
                    major operational components within DHS—CBP, FEMA, ICE,
                    TSA, USCIS, USCG, and USSS—to discuss DHS IT management
                    policies, DHS CIO budget authority, portfolio management,
                    communication, and major integration efforts.

                    We conducted audit fieldwork from August to November 2011 at
                    DHS CIO headquarters, operational component headquarters, and
                    the headquarters of external agencies in Washington, DC. We
                    conducted this performance audit pursuant to the Inspector

         DHS Information Technology Management Has Improved, But Challenges Remain

                                          Page 32
Appendix A
Purpose, Scope, and Methodology

                    General Act of 1978, as amended, and according to generally
                    accepted government auditing standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based upon our audit objectives. We believe that the
                    evidence obtained provides a reasonable basis for our findings and
                    conclusions, based upon our audit objectives.

                    The principal OIG points of contact for this audit are Frank Deffer,
                    Assistant Inspector General for Information Technology Audits,
                    and Richard Harsche, Director of Information Management.
                    Appendix D identifies major OIG contributors to the audit.




         DHS Information Technology Management Has Improved, But Challenges Remain

                                          Page 33
Appendix B
Management Comments to the Draft Report




         DHS Information Technology Management Has Improved, But Challenges Remain


                                          Page 34

Appendix C
Major Contributors to this Report

                     Richard Harsche, Division Director
                     Kristen Bernard, Audit Manager
                     Craig Adelman, Auditor-in-Charge
                     Anna Hamlin, Auditor
                     Thea Calder, Auditor
                     Daniel McGrath, Auditor
                     Aaron Zappone, Referencer




          DHS Information Technology Management Has Improved, But Challenges Remain

                                           Page 35
Appendix D
Report Distribution

                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff
                      Deputy Chief of Staff
                      General Counsel
                      Executive Secretariat
                      DHS OIG Liaison
                      DHS Chief Information Officer
                      DHS Deputy Chief Information Officer
                      DHS Chief Financial Officer
                      DHS Chief Procurement Officer
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




          DHS Information Technology Management Has Improved, But Challenges Remain


                                           Page 36

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General
(OIG) at (202)254-4100, fax your request to (202)254-4305, or e-mail your request to
our OIG Office of Public Affairs at DHS-OIG.OfficePublicAffairs@dhs.gov. For
additional information, visit our OIG website at www.oig.dhs.gov or follow us on Twitter
@dhsoig.

OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal
or noncriminal misconduct relative to Department of Homeland Security programs and
operations:

• Call our Hotline at 1-800-323-8603

• Fax the complaint directly to us at (202)254-4292

• E-mail us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
        DHS Office of Inspector General/MAIL STOP 2600,
        Attention: Office of Investigation - Hotline,
        245 Murray Drive SW, Building 410
        Washington, DC 20528

The OIG seeks to protect the identity of each writer and caller.
